LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 8, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-431:
RE NO. 19-454:

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME V.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL. V.
COMMONWEALTH OF PENNSYLVANIA, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Lambda Legal Defense
and Education Fund, Inc. and the Human Rights Campaign, on April 8, 2020, I caused service
to be made pursuant to Rule 29 on the following counsel for the Petitioners and Respondents:
PETITIONER THE LITTLE SISTERS OF
THE POOR SAINTS PETER AND PAUL
HOME:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW, Suite 700
Washington, DC 20036
202-349-7208
mrienzi@becketlaw.org

FEDERAL PARTIES:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

RESPONDENT COMMONWEALTH OF
PENNSYLVANIA:
Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St., Suite 300
Philadelphia, PA 19103
215-560-2171
mfischer@attorneygeneral.gov
This service was effected by depositing three copies of the Brief of Amici Curiae Lambda
Legal Defense and Education Fund, Inc. and the Human Rights Campaign in an official “first
class mail” receptacle of the United States Post Office as well as by transmitting a digital copy
via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 8th day of April 2020.

